Washington, D.C. 20530

May 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Nevia Abraham v. United States of America,
S.Ct. No. 20-7634
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 29, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on May 19, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 18, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7634
ABRAHAM, NEVIA
USA

GAIL SMITH STAGE
FEDERAL PUBLIC DEFENDER, SOUTHERN
DISTRICT OF FLORIDA
1 EAST BROWARD BOULEVARD
STE. 1100
FORT LAUDERDALE, FL 33301
954-640-7130

